App. No. ___________
--------------------------In the
Supreme Court of the United States
--------------------------LC,
Petitioner,
v.
MG
Respondent.
--------------------------PROOF OF SERVICE
--------------------------I HEREBY CERTIFY that on this date a true and correct copy of the
foregoing documents were served upon the following parties by U.S. Mail:
CHRISTOPHER D. THOMAS
1001 Bishop Street, Ste. 2925
Honolulu, Hawaii 96813
PETER C. RENN
LAMBDA LEGAL DEFENSE AND
EDUCATION FUND, INC
4221 Wilshire Blvd., Suite 280
Los Angeles, CA 90010
Attorneys for MG

1

CLYDE J. WADSWORTH
Solicitor General
State of Hawaii
524 Queen Street
Honolulu, Hawaii 96813
LYN K. KASHIWABARA
680 Iwilei Road, Ste. 400
Honolulu, Hawaii 96817
Attorneys for
CHILD SUPPORT ENFORCEMENT AGENCY,
STATE OF HAWAII
DATED: Berkeley, California, March 4, 2019.

ROBERT H. THOMAS

2

Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30.3,
petitioner LC respectfully requests that the time to file a petition for a writ of
certiorari in this case be extended for thirty days to June 5, 2019. Petitioner will ask
this Court to review a judgment by the Supreme Court of the State of Hawaii
entered on February 4, 2019. See App. 1. Absent an extension of time, the petition
would be due on May 6, 2019. Petitioner is filing this application at least ten days
before that date. See Rule 13.5 of the Supreme Court Rules. This Court has
jurisdiction under 28 U.S.C. § 1257 to review this case.

Background
The Hawaii Supreme Court interpreted Hawaii’s version of the Uniform
Parentage Act law to create an irrebuttable presumption of paternity when one
spouse undergoes assisted reproduction without the other spouse’s consent.
1.

Petitioner LC and MG were a same-sex married couple. MG,

designated LC as a co-parent on the birth certificate of a child born to MG through
assisted reproduction. LC filed a petition to disestablish parentage to formally
remove her name from the birth certificate because she is not the natural parent of
the child and did not consent to the assisted reproduction procedure. Without
asking LC, MG had undergone assisted reproduction while LC, who serves as a
flight officer in the United States Navy, was deployed overseas. Contemporaneous
with her petition, LC filed for divorce. LC has never met the child and MG is the
sole caregiver.
2.

In a consolidated parentage/divorce action, the Family Court of the

State of Hawaii concluded that LC is the legal parent of the child and denied her
request to disestablish parentage. The family court awarded MG temporary sole
legal custody, declined to award LC visitation, and ordered LC to pay child support.
3.

LC filed an appeal to the Intermediate Court of Appeals of the State of

Hawaii and the case was then transferred for review by the Supreme Court of the
3

State of Hawaii. In a 3-2 decision, the Hawaii Supreme Court held “that a spouse
cannot rebut the HRS § 584-4(a)(1)1 marital presumption of parentage pursuant to
HRS § 584-4(b)2 by demonstrating by clear and convincing evidence a lack of
consent to the other spouse’s artificial insemination procedure.” LC v. MG, 430 P.3d
400, 418 (Haw. 2018); see App. 2. In other words, the Hawaii Supreme Court
created an irrebuttable presumption that when a spouse undergoes assisted
reproduction, regardless of whether the other spouse consents, he or she is legally
the parent and cannot prove otherwise.
4.

LC filed a motion for reconsideration with the Hawaii Supreme Court,

which was denied, again with two Justices dissenting. See App. 3.
Opinions Below
1.

The Hawaii Supreme Court issued the opinions in the case on October

4, 2018.
2.

The court denied Petitioner’s Motion for Reconsideration and

Reargument on November 2, 2018.
3.

The Hawaii Supreme Court issued the Judgment on Appeal on

February 4, 2019.
Jurisdiction
This Court has jurisdiction under 28 U.S.C. § 1257.
Reasons for Granting an Extension of Time

Haw. Rev. Stat. § 584-4(a)(1) provides in pertinent part: “(a) A man is presumed to be the
natural father of a child if: (1) He and the child’s natural mother are or have been married
to each other and the child is born during the marriage . . . .”
1

2

Haw. Rev. Stat. § 584-4(b) provides:
A presumption under this section may be rebutted in an appropriate action only
by clear and convincing evidence. If two or more presumptions arise which
conflict with each other, the presumption which on the facts is founded on the
weightier considerations of policy and logic controls. The presumption is
rebutted by a court decree establishing paternity of the child by another man.

4

The time to file a petition for a writ of certiorari should be extended for thirty
days, to June 5, 2019 for several reasons:
1.

The forthcoming petition will present important federal constitutional

questions that this Court should consider.
Procedural Due Process. Both parties and the amicus State of Hawaii
presented their cases presuming the marital presumption could be rebutted by
demonstrating lack of consent. The Hawaii Supreme Court’s majority sua sponte
imposed an irrebuttable presumption and did not allow further briefing on the
matter, denying LC an opportunity to be heard. Further, a statutory presumption
that is irrebuttable deprives a spouse of fair notice and an opportunity to be heard
that they did not agree to either have a child or to becoming a parent.
Substantive Due Process. An irrebuttable presumption of paternity where
consent has been deemed irrelevant simply by virtue of their marital status
arbitrarily and capriciously forces someone to become a parent against their will,
infringing on their fundamental liberty and property interests. Whether to have a
child goes to the most fundamental of our constitutional rights.
Equal Protection. There is no rational reason to impress parenthood upon
someone who did not consent to have a child simply because of their marital status.
2.

Additional time is necessary and warranted for appellate counsel of

record, retained after the Hawaii Supreme Court’s opinion, to review the record in
the case, research case law and federal and state constitutional law, and prepare a
clear and concise petition for certiorari for the Court’s review.
3.

LC is current with child support.

4.

No prejudice to Respondent MG would arise from the extension.

5.

Counsel for MG, and Counsel for the State of Hawaii do not oppose this

request for an extension of time.

5

Conclusion
For the foregoing reasons, the time to file a petition for a writ of certiorari in
this matter should be extended thirty days to and including June 5, 2019.
Respectfully submitted,

Robert H. Thomas
Counsel of Record
DAMON KEY LEONG KUPCHAK HASTERT
1003 Bishop Street, 16th Floor
Honolulu, Hawaii 96813
(808) 531-8031
rht@hawaiilawyer.com
Rebecca A. Copeland
LAW OFFICE OF REBECCA A. COPELAND
1170 Nuuanu Avenue, #372041
Honolulu, Hawaii
(808) 792-3803
rebecca@copelandlawllc.com
March 4, 2019.

6

